     Department of Homeland Security

     ��������������������������


   Independent Auditors' Report on DHS' FY 2013 

   Financial Statements and Internal Control Over 

                 Financial Reporting 





OIG-14-18                               December 2013

                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security
                               Washington, DC 20528 / www.oig.dhs.gov

                                     DEC 11 2013

MEMORANDUM FOR: 	              The Honorable Rand Beers
                               Acting Secretary

FROM:                          	 harles K. Edwards

                               C
                               Deputy Inspector General

SUBJECT: 	                     Independent Auditors’ Report on DHS’ FY 2013 Financial
                               Statements and Internal Control over Financial Reporting

The attached report presents the results of the U.S. Department of Homeland Security’s
(DHS) financial statements audit for fiscal year (FY) 2013 and the results of an
examination of internal control over financial reporting of those financial statements.
These are mandatory audits required by the Chief Financial Officers Act of 1990, as
amended by the Department of Homeland Security Financial Accountability Act of 2004.
This report is incorporated in the Department’s FY 2013 Agency Financial Report. We
contracted with the independent public accounting firm KPMG LLP (KPMG) to perform
the integrated audit.

The Department continued to improve financial management in FY 2013 and has
achieved a significant milestone. This is the first year the Department has received an
unmodified (clean) opinion on all financial statements. However, KPMG issued an
adverse opinion on DHS’ internal control over financial reporting of the FY 2013 financial
statements. Further, as stated in the Secretary’s Assurance Statement, the Department
has material weaknesses in internal control over financial reporting. In order to sustain
the unmodified opinion, the Department must continue remediating the remaining
control deficiencies.

                                          Summary

KPMG expressed an unmodified opinion on the Department’s balance sheet as of
September 30, 2013, and the related statements of net cost, changes in net position,
and custodial activity, and combined statement of budgetary resources for the year
then ended (referred to as the “FY 2013 financial statements”). However, KPMG
identified eight significant deficiencies in internal control, of which four are considered
material weaknesses. Consequently, KPMG issued an adverse opinion on DHS’ internal
control over financial reporting as of September 30, 2013.
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   The report discusses eight significant deficiencies in internal control, four of which are 
   considered material weaknesses, and four instances of noncompliance with laws and 
   regulations, as follows: 
    
           Significant Deficiencies That Are Considered To Be Material Weaknesses 
               
           Financial Reporting 
           Information Technology Controls and Financial System Functionality 
           Property, Plant, and Equipment  
           Budgetary Accounting 
    
                                     Other Significant Deficiencies 
    
              Entity‐Level Controls
  
              Liabilities
 
              Grants Management
 
              Custodial Revenue and Drawback
 
                
                             Non‐compliance with Laws and Regulations 
                                                  
              Federal Managers’ Financial Integrity Act of 1982 (FMFIA),
  
              Federal Financial Management Improvement Act of 1996 (FFMIA)
 
              Single Audit Act Amendments of 1996
 
              Anti‐deficiency Act (ADA)
 
    
    
                         Moving DHS’ Financial Management Forward 
   
  The Department continued to remediate conditions contributing to material 
  weaknesses and was able to reduce the number of material weaknesses from five in  
  FY 2012 to four in FY 2013. As a result of improvements made by USCG in FY 2012 
  regarding environmental liability balances, liabilities were downgraded to a significant 
  deficiency in FY 2013. Additionally, USCG completed several phases of a multi‐year 
  remediation plan to address process and control deficiencies related to the property, 
  plant and equipment process.  However, certain remediation efforts were not fully 
  completed until late in FY 2013, and additional remediation activities are scheduled for 
  FY 2014.  Further, other components experienced challenges in financial reporting 
  resulting in deficiencies in multiple processes.  
   
  In FY 2012 the Department provided qualified assurance that internal control over 
  financial reporting was operating effectively at September 30, 2012, and acknowledged 
            
www.oig.dhs.gov                                 2                                       OIG-14-18
	
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   that material weaknesses existed in key financial processes.  In FY 2013, the Department 
   again issued a statement of qualified assurance and reported that material weaknesses 
   in internal control over financial reporting continued to exist.  The material weaknesses 
   reported by the Department in the FY 2013 Secretary’s Assurance Statement are all 
   repeated from FY 2012.  The independent auditors identified and reported the same 
   findings as the Department, and consequently, has issued an adverse opinion on 
   internal controls over financial reporting in FY 2013.  
    
   In FY 2014 and beyond, DHS’ continuing challenge will be to sustain its progress in 
   achieving an unmodified opinion on its financial statements, and avoid slipping 
   backwards. The Department must continue remediation efforts, and stay focused, in 
   order to sustain its clean opinion on the financial statements and achieve an unqualified 
   opinion on its internal control over financial reporting. 
    
    
                                                   
                                              ***** 
                                                   
   KPMG is responsible for the attached Independent Auditors’ Report dated  
   December 11, 2013, and the conclusions expressed in the report.  We do not express 
   opinions on financial statements or internal control or conclusions on compliance with 
   laws and regulations. 
    
   Consistent with our responsibility under the Inspector General Act, we are providing 
   copies of this report to appropriate congressional committees with oversight and 
   appropriation responsibilities over the Department.  In addition, we will post a copy of 
   the report on our public website. 
    
   We request that the Office of the Chief Financial Officer provide us with a corrective 
   action plan that demonstrates progress in addressing the report’s recommendations. 
    
   Please call me with any questions, or your staff may contact Anne L. Richards,  
   Assistant Inspector General for Audits, at 202‐254‐4100. 
    
   Attachment 
    
    
    
                                   



            
www.oig.dhs.gov                                3                                        OIG-14-18
	
                                          OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


                     Excerpts from the DHS Annual Financial Report 
    
   Table of Contents  
    
   Independent Auditors’ Report ............................................................................................  1
 
    
   Introduction to Exhibits on Internal Control and Compliance and  
   Other Matters  ...................................................................................................................  i.1 
    
   Exhibit I – Material Weaknesses in Internal Control ........................................................ I.1 
    
   Exhibit II – Significant Deficiencies...................................................................................
                                                                                                                                    II.1 
    
   Exhibit III – Compliance and Other Matters ................................................................... III.1 
    
   Criteria – Index of Financial Reporting and Internal Control Criteria .................... Criteria.1 
            
   Attachment – Management’s response to our Findings 
    
   Appendixes  
    
   Appendix A:    Report Distribution ......................................................................................  1
 
          
    
          
    




www.oig.dhs.gov                                                                                                                  OIG-14-18
	
                                    KPMG LLP
                                    Suite 12000
                                    1801 K Street, NW
                                    Washington, DC 20006

                                        Independent Auditors’ Report


Secretary and Inspector General
U.S. Department of Homeland Security:

Report on the Financial Statements

We have audited the accompanying financial statements of the U.S. Department of Homeland Security (DHS
or Department), which comprise the balance sheets as of September 30, 2013 and 2012, and the related
statements of net cost, changes in net position, and custodial activity, and combined statements of budgetary
resources for the years then ended, and the related notes to the financial statements, (referred to herein as the
fiscal year (FY) 2013 and FY 2012 financial statements).

Management’s Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of these financial statements in
accordance with U.S. generally accepted accounting principles; this includes the design, implementation, and
maintenance of internal control relevant to the preparation and fair presentation of financial statements that
are free from material misstatement, whether due to fraud or error.

Auditors’ Responsibility

Our responsibility is to express an opinion on these financial statements based on our audits. We conducted
our audits in accordance with auditing standards generally accepted in the United States of America; the
standards applicable to financial audits contained in Government Auditing Standards issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin No. 14-
02, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin No. 14-02
require that we plan and perform the audit to obtain reasonable assurance about whether the financial
statements are free from material misstatement.
An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the
financial statements. The procedures selected depend on the auditors’ judgment, including the assessment of
the risks of material misstatement of the financial statements, whether due to fraud or error. In making those
risk assessments, the auditor considers internal control relevant to the Department’s preparation and fair
presentation of the financial statements in order to design audit procedures that are appropriate in the
circumstances. An audit also includes evaluating the appropriateness of accounting policies used and the
reasonableness of significant accounting estimates made by management, as well as evaluating the overall
presentation of the financial statements.
We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our
audit opinion on the balance sheet as of September 30, 2013, and the statement of net cost, changes in net
position, and custodial activity and combined statement of budgetary resources for the year ended September
30, 2013. Our audit opinion on the FY 2012 financial statements was qualified for reasons described below.
Basis for Qualified Opinion on the FY 2012 Financial Statements

In FY 2012, U.S. Coast Guard (Coast Guard) continued an extensive project to reconcile its financial
statement accounts, obtain sufficient evidence to support historical transactions, and prepare auditable
financial statements. While substantial progress was made in FY 2012, Coast Guard was unable to complete
certain reconciliations or provide evidence supporting certain components of general property, plant, and
equipment (PP&E), and heritage and stewardship assets, as presented in the accompanying FY 2012
financial statements and notes. Accordingly, we were unable to complete our audit procedures over these
components of the PP&E balance. The unaudited PP&E balances, as reported in the accompanying balance
sheet are $7.6 billion or approximately 38 percent of total PP&E net book value at September 30, 2012.
                                   KPMG LLP is a Delaware limited liability partnership,
                                   the U.S. member firm of KPMG International Cooperative
                                   (“KPMG International”), a Swiss entity.
Qualified Opinion on the FY 2012 Financial Statements

In our opinion, except for the effects on the FY 2012 financial statements of such adjustments, if any, as
might have been determined to be necessary had we been able to apply adequate audit procedures to certain
PP&E balances and heritage and stewardship assets, as discussed in the preceding paragraph, the FY 2012
financial statements referred to above present fairly, in all material respects, the financial position of DHS as
of September 30, 2012, and its net costs, changes in net position, budgetary resources, and custodial activity
for the year ended September 30, 2012, in accordance with U.S. generally accepted accounting principles.

Opinion on the FY 2013 Financial Statements

In our opinion, the financial statements referred to above present fairly, in all material respects, the financial
position of DHS as of September 30, 2013, and its net costs, changes in net position, budgetary resources,
and custodial activity for the year ended September 30, 2013, in accordance with U.S. generally accepted
accounting principles.

Emphasis of Matters

As discussed in Notes 1T and 15 of the financial statements, the Department has intragovernmental debt of
approximately $24 billion used to finance the National Flood Insurance Program (NFIP) as of September
30, 2013. Due to the subsidized nature of the NFIP, the Department has determined that future insurance
premiums, and other anticipated sources of revenue, may not be sufficient to repay this debt. The financial
statements do not include any adjustments that might result from the outcome of this uncertainty. Our
opinion is not modified with respect to this matter.

As discussed in Note 34 to the financial statements, the Department has restated certain property, plant, and
equipment, and related balances, as presented in the FY 2012 financial statements. Our opinion is not
modified with respect to this matter.

Other Matters

Required Supplementary Information

U.S. generally accepted accounting principles require that the information in the Management’s Discussion
and Analysis (MD&A), Required Supplementary Information (RSI), and Required Supplementary
Stewardship Information (RSSI) sections be presented to supplement the basic financial statements. Such
information, although not a part of the basic financial statements, is required by the Federal Accounting
Standards Advisory Board who considers it to be an essential part of financial reporting for placing the basic
financial statements in an appropriate operational, economic, or historical context. We were unable to
complete limited procedures over MD&A and RSI as prescribed by professional standards because of the
limitations on the scope of our FY 2012 audit described above in the Basis for Qualified Opinion on the FY
2012 Financial Statements section of our report. We have applied certain limited procedures to the required
RSSI information in accordance with auditing standards generally accepted in the United States of America,
which consisted of inquiries of management about the methods of preparing the information and comparing
the information for consistency with management’s responses to our inquiries, the basic financial statements,
and other knowledge we obtained during our audits of the basic financial statements. We do not express an
opinion or provide any assurance on the information because the limited procedures do not provide us with
sufficient evidence to express an opinion or provide any assurance.

Other Information

Our audits were conducted for the purpose of forming an opinion on the basic financial statements as a
whole. The information in the Message from Acting Secretary, Message from the Acting Chief Financial
Officer, and Other Information section, as listed in the Table of Contents of the DHS Agency Financial
Report is presented for purposes of additional analysis and is not a required part of the basic financial
statements. Such information has not been subjected to the auditing procedures applied in the audit of the
basic financial statements, and accordingly, we do not express an opinion or provide any assurance on it.
Report on Internal Control over Financial Reporting
We have audited DHS’ internal control over financial reporting as of September 30, 2013, based on the
criteria established in OMB Circular No. A-123, Management’s Responsibility for Internal Control (OMB
Circular A-123), Appendix A. DHS management is responsible for maintaining effective internal control
over financial reporting, and for its assertion of the effectiveness of internal control over financial reporting,
included in the accompanying Secretary’s Assurance Statement in the Department’s Agency Financial
Report. Our responsibility is to express an opinion on DHS’ internal control over financial reporting based
on our audit.

We conducted our audit in accordance with attestation standards established by the American Institute of
Certified Public Accountants and the standards applicable to attestation engagements contained in
Government Auditing Standards issued by the Comptroller General of the United States. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether effective internal
control over financial reporting was maintained in all material respects. Our audit included obtaining an
understanding of internal control over financial reporting, assessing the risk that a material weakness exists,
and testing and evaluating the design and operating effectiveness of internal control based on the assessed
risk. Our audit also included performing such other procedures as we considered necessary in the
circumstances. We believe that our audit provides a reasonable basis for our opinion.

An entity’s internal control over financial reporting is a process affected by those charged with governance,
management, and other personnel, designed to provide reasonable assurance regarding the preparation of
reliable financial statements in accordance with U.S. generally accepted accounting principles. An entity’s
internal control over financial reporting includes those policies and procedures that (1) pertain to the
maintenance of records that, in reasonable detail, accurately and fairly reflect the transactions and
dispositions of the assets of the entity; (2) provide reasonable assurance that transactions are recorded as
necessary to permit preparation of financial statements in accordance with U.S. generally accepted
accounting principles, and that receipts and expenditures of the entity are being made only in accordance
with authorizations of management and those charged with governance; and (3) provide reasonable
assurance regarding prevention, or timely detection and correction of unauthorized acquisition, use, or
disposition of the entity’s assets that could have a material effect on the financial statements.

Because of inherent limitations, internal control over financial reporting may not prevent, or detect and
correct misstatements. Also, projections of any evaluation of effectiveness to future periods are subject to the
risk that controls may become inadequate because of changes in conditions, or that the degree of compliance
with the policies or procedures may deteriorate.

A material weakness is a deficiency, or a combination of deficiencies, in internal control over financial
reporting, such that there is a reasonable possibility that a material misstatement of the entity’s financial
statements will not be prevented, or detected and corrected on a timely basis. The material weaknesses
described below and in the accompanying Exhibit I have been identified and included in the Secretary’s
Assurance Statement.

    A.   Financial Reporting
    B.   Information Technology Controls and Financial Systems Functionality
    C.   Property, Plant, and Equipment
    D.   Budgetary Accounting

In our opinion, because of the effect of the material weaknesses described above on the achievement of the
objectives of the control criteria, DHS has not maintained effective internal control over financial reporting as
of September 30, 2013, based on the criteria established in OMB Circular No. A-123, Management’s
Responsibility for Internal Control (OMB Circular A-123), Appendix A. We do not express an opinion or
any other form of assurance on management’s evaluation and assurances made in the Secretary’s Assurance
Statement.

In accordance with Government Auditing Standards, we are required to report findings of significant
deficiencies. A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that
is less severe than a material weakness, yet important enough to merit attention by those charged with
governance. We consider the deficiencies described below and in the accompanying Exhibit II to be
significant deficiencies.

    E.   Entity-Level Controls
    F.   Liabilities
    G.   Grants Management
    H.   Custodial Revenue and Drawback

The report on internal control over financial reporting is intended solely for the information and use of the
DHS management, the DHS Office of the Inspector General, the U.S. Government Accountability Office,
and the U.S. Congress, and is not intended to be and should not be used by anyone other than these specified
parties.

Other Reporting Required by Government Auditing Standards

Compliance and Other Matters

As part of obtaining reasonable assurance about whether DHS’ financial statements are free from material
misstatement, we performed tests of its compliance with certain provisions of laws, regulations, contracts,
and grant agreements, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain provisions of other laws and regulations specified
in OMB Bulletin No. 14-02. However, providing an opinion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not express such an opinion. The results of our tests disclosed
instances of noncompliance or other matters that are required to be reported under Government Auditing
Standards or OMB Bulletin No. 14-02, and which are described below and in the accompanying Exhibit III.

    I.   Federal Managers’ Financial Integrity Act of 1982
    J.   Federal Financial Management Improvement Act of 1996
    K.   Single Audit Act Amendments of 1996
    L.   Anti-deficiency Act

We also performed tests of its compliance with certain provisions referred to in Section 803(a) of the
Federal Financial Management Improvement Act of 1996 (FFMIA). Providing an opinion on compliance
with FFMIA was not an objective of our audit, and accordingly, we do not express such an opinion. The
results of our tests of FFMIA disclosed instances, as described in Exhibits I, II, and III, where DHS’
financial management systems did not substantially comply with the (1) Federal financial management
systems requirements, (2) applicable Federal accounting standards, and (3) the United States Government
Standard General Ledger at the transaction level.

We also reported other matters related to compliance with the Anti-deficiency Act at Coast Guard and
Intelligence & Analysis in Exhibit III.
Purpose of the Other Reporting Required by Government Auditing Standards

The purpose of the communication described in the Other Reporting Required by Government Auditing
Standards section is solely to describe the scope of our testing of compliance and the result of that testing,
and not to provide an opinion on compliance. Accordingly, this communication is not suitable for any other
purpose.

DHS’ Responses to Findings

DHS’ responses to the findings identified in our audit are attached to our report. DHS’ responses were not
subjected to the auditing procedures applied in the audit of the financial statements and, accordingly, we
express no opinion on the responses.




December 11, 2013
Independent Auditors’ Report
Introduction to Exhibits on Internal Control and Compliance and Other Matters

Our report on internal control over financial reporting and compliance and other matters is presented in
accordance with Government Auditing Standards, issued by the Comptroller General of the United States.
The internal control weaknesses in financial reporting, and findings related to compliance with certain
laws, regulations, contracts, and grant agreements presented herein were identified during our audit of the
U.S. Department of Homeland Security (Department or DHS)’s financial statements as of, and for the year
ended, September 30, 2013, and our engagement to audit internal control over financial reporting of those
financial statements. Our findings are presented in three exhibits:
Exhibit I	     Findings that individually or in aggregate that are considered material weaknesses in
               internal control over financial reporting affecting the DHS consolidated financial
               statements.
Exhibit II	    Findings that individually or in aggregate are considered significant deficiencies that are not
               material weaknesses, however, should be brought to the attention of DHS management and
               others in positions of DHS oversight.
Exhibit III	   Instances of noncompliance with certain laws, regulations, contracts, and grant agreements
               that are required to be reported under Government Auditing Standards or Office of
               Management and Budget (OMB) Bulletin No. 14-02, Audit Requirements for Federal
               Financial Statements.
Criteria	       Index of Financial Reporting and Internal Control Criteria
Attachment	    Management’s response to our findings
The determination of which findings rise to the level of a material weakness is based on an evaluation of
how deficiencies identified in all components, considered in aggregate, may affect the DHS financial
statements as of September 30, 2013, and for the year then ended.
We have also performed follow-up procedures on findings identified in previous audits of the financial
statements and internal control over financial reporting. To provide trend information for the DHS
components, Exhibits I and II contain trend tables next to the heading of each finding. The trend tables in
Exhibits I and II depict the severity by color (red boxes where component findings are more severe, and
yellow boxes where component findings are less severe), and current status of findings, by component that
has contributed to that finding from FY 2011 through FY 2013. Listed in the title of each material
weakness and significant deficiency included in Exhibits I and II, are the DHS components that contributed
to the finding in FY 2013.
The criteria supporting our findings, such as references from technical accounting standards, various rules
and regulations, including requirements issued by the OMB and the U.S. Treasury, and internal
Departmental and component directives, are presented in the Index of Financial Reporting and Internal
Control Criteria behind Exhibit III.
A summary of our findings in FY 2013 and FY 2012 are presented in the Tables below:
Table 1        Presents a summary of our internal control findings, by component, for FY 2013.
Table 2        Presents a summary of our internal control findings, by component, for FY 2012.
We have reported four material weaknesses and four significant deficiencies at the Department level in FY
2013, shown in Table 1.




                                                     i.1
       Independent Auditors’ Report
       Introduction to Exhibits on Internal Control and Compliance and Other Matters

                                 TABLE 1 – SUMMARIZED DHS FY 2013 INTERNAL CONTROL FINDINGS
                                              (Full-Scope Financial Statement Audit)

     Comments / Financial Statement Area           DHS Consol.   CG    CBP   USCIS   FEMA     ICE MGMT         NPPD   USSS   OFM
Material Weaknesses:                                                                        Exhibit I
  A    Financial Reporting                            MW
   B    IT Controls and System Functionality          MW
   C    Property, Plant, and Equipment                MW
   D     Budgetary Accounting                         MW
Significant Deficiencies:                                                                   Exhibit II
   E     Entity-Level Controls – Department-wide       SD
   F    Liabilities                                    SD
  G     Grants Management                              SD
  H     Custodial Revenue and Drawback                 SD


                                 TABLE 2 – SUMMARIZED DHS FY 2012 INTERNAL CONTROL FINDINGS
                                              (Full-Scope Financial Statement Audit)

       Comments / Financial Statement Area         DHS Consol.   CG    CBP   USCIS   FEMA    FLETC       ICE   MGMT   NPPD   TSA
Material Weaknesses:                                                                        Exhibit I
  A    Financial Reporting                            MW
   B    IT Controls and System Functionality          MW
   C    Property, Plant, and Equipment                MW
  D     Environmental and Other Liabilities           MW
   E    Budgetary Accounting                          MW
Significant Deficiencies:                                                                   Exhibit II
   F     Entity-Level Controls                         SD
  G     Grants Management                              SD
  H     Custodial Revenue and Drawback                 SD



       All components of DHS, as defined in Note 1A – Reporting Entity, to the financial statements, were included
       in the scope of our audit of the DHS financial statements as of September 30, 2013, and our engagement to
       audit internal control over financial reporting of those financial statements. Accordingly, our financial
       statement audit and engagement to audit internal control considered significant account balances,
       transactions, and accounting processes of other DHS components not listed above. Control deficiencies
       identified in other DHS components that are not identified in the table above did not individually, or when
       combined with other component findings, contribute to a material weakness or significant deficiency at the
       DHS consolidated financial statement level.




                                                                 i.2
Independent Auditors’ Report
Exhibit I – Material Weaknesses

I-A Financial Reporting (USCG, MGMT, NPPD, ICE, USSS, OFM)

Background: During fiscal year (FY) 2013, the U.S. Coast Guard                         Trend Table
(Coast Guard or USCG) continued to implement corrective action
plans designed to remediate long-standing internal control                                 2013     2012        2011
deficiencies and strengthen financial reporting controls. These
                                                                           USCG
remediation efforts allowed management to make new assertions in
FY 2013 related to the auditability of its financial statement             MGMT                      N/A        N/A
balances, including approximately $7.6 billion of personal property.
However, we noted that deficiencies remain in some financial               NPPD                      N/A        N/A
reporting areas and additional remediation efforts associated with the
reconciliation of certain personal and real property balances are          ICE                                  N/A
scheduled to continue in FY 2014.                                          USSS                      N/A        N/A

Other DHS components, including The Management Directorate                 OFM                       N/A        N/A
(MGMT), National Protection and Programs Directorate (NPPD),
U.S. Immigration and Customs Enforcement (ICE), and U.S. Secret            TSA               C
Service (USSS) experienced challenges in financial reporting,
                                                                           USCIS             C        C
resulting in deficiencies in multiple processes.
The Office of Financial Management (OFM) is primarily responsible
for issuing Departmental accounting policy and guidance, and performs                Key – Trend Table
a critical role in the Department’s annual risk assessment, and
monitoring of financial reporting throughout the year.                         C     Deficiencies are corrected

Transportation Security Administration (TSA) has made progress in             N/A    No deficiencies reported
strengthening internal controls over financial reporting in FY 2013.                 Deficiencies are less severe*
Conditions: We noted the following internal control weaknesses                       Deficiencies are more severe*
related to financial reporting at Coast Guard, MGMT, NPPD, ICE,
USSS, and OFM.                                                               * See Introduction

1.		 Coast Guard:
    •	 Lacked adequate processes to ensure that all non-standard adjustments (i.e., journal entries, top
        side adjustments, and scripts) impacting the general ledger were adequately researched, supported,
        and reviewed prior to their recording in the general ledger.
    •	 Has not fully compared existing policies to applicable generally accepted accounting principles
        (GAAP) and periodically monitored the financial statement impact of “non-GAAP” policies (e.g.,
        imputed financing costs) that were inconsequential.
    •	 Was not able to completely support beginning balance and year-end close-out related activity in its
        three general ledgers.
    •	 Was not able to identify and reconcile intra-governmental activities and balances and ensure that
        transactions were coded to the correct trading partner. Additionally, internal controls associated
        with the periodic confirmation and reconciliation of intergovernmental activity were not fully
        implemented to ensure identified differences, especially with agencies outside DHS, were resolved
        in a timely manner.
    •	 Had difficulty sustaining various financial reporting internal control activities, including those
        designed to ensure the accurate and timely completion of technical accounting research papers.
        Gaps in the design or operating effectiveness of internal controls were identified in transactional
        and management reviews associated with various processes including, but not limited to, fund
        balance with Treasury, accounts receivable, contingent liabilities, property, plant, and equipment,



                                                     I.1
Independent Auditors’ Report
Exhibit I – Material Weaknesses

        operating materials and supplies, and budgetary accounts. Some of the above weaknesses resulted
        in adjustments to the current or prior period financial statements.
    •	 Did not always maintain general ledger activity in compliance with the United States Standard
        General Ledger (USSGL) at the transaction level.
2.		 MGMT:
    •	 Had not fully designed internal controls to ensure effective monitoring of decentralized operations,
        and adequate communication with its service provider.
    •	 Had not fully established a financial management infrastructure, including defined roles and
        responsibilities, and policies and procedures, that ensure consistently reliable, accurate, and timely
        financial reporting for all significant processes. For example, we noted:
        -    Controls were not operating effectively to ensure that capital projects and leases were properly
             monitored, reviewed, and costs were appropriately recorded and disclosed;
        -    Controls were not fully effective over expenses, payroll, including timesheet review, and
             review of invoices prior to disbursement, and timely adjustment of suspense balances at year
             end; and
        -    Lack of documented policies and procedures to ensure the working capital funds are identified
             for proper recording by components.
    •	 Was not fully compliant with the USSGL requirements at the transaction level.
    •	 Internal controls over financial reporting were not operating effectively, which impaired MGMT’s
        ability to respond to audit inquiries and provide auditable transaction populations with accurate
        information without reliance on the general ledger service provider.
3.		 NPPD:
    •	 Had not fully designed internal controls to ensure effective monitoring of its decentralized
        operations, and ensure adequate communication with its service provider, and consistently reliable,
        accurate, and timely financial reporting for all significant processes. For example we noted:
        -    Controls were not operating effectively to ensure that capital assets were timely and accurately
             recorded in the asset sub-ledger and general ledger; and
        -    A lack of adequate policies and procedures over accruals of revenue where services were
             performed but not recorded, as well as policies to ensure timely research and resolution of
             reconciling items to fund balance with Treasury.
    •	 Was not fully compliant with the USSGL requirements at the transaction level.
    •	 Controls were not fully effective to provide readily auditable populations with accurate
	
        information without reliance on the general ledger service provider.
	
4.		 ICE:
    •	 Supervisory review controls over journal vouchers, account reconciliations, and analysis were not
        operating effectively. Some of these deficiencies resulted in adjustments to the current or prior
        period financial statements.
    •	 Did not always adhere to or reinforce compliance with existing policies and procedures.
    •	 Lacked policies and procedures and associated controls to ensure that all key input data was valid
        (complete, accurate) and recorded timely.
    •	 Lacked controls over monitoring and tracking capital assets including timely capitalization and
        appropriate depreciation of capital assets, internal use software, and leasehold improvements.

                                                     I.2
Independent Auditors’ Report
Exhibit I – Material Weaknesses

    •	 Controls were not fully effective to provide readily auditable transaction populations with accurate
        supporting information.
    •	 Was not fully compliant with the USSGL requirements at the transaction level.
5.		 USSS:
    •	 Internal controls over recording the actuarially derived pension expense and loss were not
        operating effectively, resulting in an incorrect journal entry and a financial statement error in the
        presentation of changes in long-term assumptions.
6.		 OFM:
    •	 Controls over the preparation and review of consolidated financial information were not always
        operating effectively. For example, management review controls over contingent legal liabilities,
        lease disclosures, elimination analysis, and non-GAAP analysis were not fully effective in
        identifying errors or analyzing information.
    •	 Controls did not always operate at the designed level of precision to perform an effective quality
        review of information submitted by components. Consequently, deficiencies in component level
        reviews and analysis of financial information, sent to OFM, may not be identified.
    •	 Controls were not fully effective to ensure the consistent understanding and application of
	
        guidance issued by OFM to the components. 

Cause/Effect: The Coast Guard’s three legacy general ledger systems, developed over a decade ago, were
not effective, and had severe functional limitations contributing to the Coast Guard’s inability to address
pervasive internal control weaknesses in financial reporting, strengthen the control environment, and
comply with relevant Federal financial system requirements and guidelines, notably Comment III-J,
Federal Financial Management Improvement Act of 1996 (FFMIA). Also see information technology (IT)
system functionality issues described at Comment I-B, Information Technology Controls and Financial
Systems Functionality. The Coast Guard utilized a redundant general ledger system with duplicate
transaction postings as a compensating control to mitigate identified financial reporting deficiencies,
resulting in highly inefficient financial reporting processes. The conditions supporting our findings
collectively limited the Coast Guard’s ability to consistently process, store, and report financial data in a
manner that ensured accuracy, confidentiality, integrity, and availability of data without substantial manual
intervention.
NPPD and MGMT used ICE as a general ledger service provider, and for several years relied on ICE to
ensure financial statement integrity. In recent years, NPPD and MGMT have assumed more responsibility
for financial management functions to help manage their operations and budgets. An intra-agency
agreement between ICE and NPPD and MGMT defines the roles and responsibilities of each component,
however there was a control gap between the services provided by ICE (in accordance with an intra-agency
agreement), and the procedures and processes performed by NPPD and MGMT, leading to a number of
control deficiencies in financial reporting at those components. Additionally, NPPD and MGMT’s financial
management resources were limited and some operations were unique and decentralized. Additionally,
MGMT’s overall operational functions, including the Working Capital Fund, were complex and diverse.
ICE faced challenges in developing and maintaining communications that affect financial reporting
throughout decentralized program offices.
The USSS did not properly interpret the annual report provided by the pension actuary, resulting in an
erroneous journal entry to record the effects of assumption changes on pension expense.
The DHS OFM restructured staffing and quality control positions in the current year. Roles and
responsibilities within OFM were not always clearly understood, and as a result, the quality of analysis of
financial statement information was sometimes lacking. This resulted in control gaps allowing a number of
errors to occur.



                                                      I.3
Independent Auditors’ Report
Exhibit I – Material Weaknesses

Because of the conditions noted above, and described throughout Exhibits I and II, the Department was
unable to provide full assurance that internal controls over financial reporting were operating effectively at
September 30, 2013. Management has acknowledged in the Secretary’s Assurance Statement presented in
Management’s Discussion and Analysis section of the FY 2013 Agency Financial Report that material
weaknesses and other internal control deficiencies continue to exist in some key financial processes. Also
see Comment III-I, Federal Managers’ Financial Integrity Act of 1982.
Criteria: Presented in Index of Financial Reporting and Internal Control Criteria, after Exhibit III.
Recommendations: We recommend that:
1.		 Coast Guard:
    a.		 Establish new or improve existing policies, procedures, and related internal controls to ensure that:
         i)		 All non-standard adjustments (i.e., journal entries, top side adjustments, and scripts)
              impacting the general ledger are adequately researched, supported, and reviewed prior to their
              recording in the general ledger;
         ii)		 All “non-GAAP” policies are identified and their quantitative and qualitative financial
               statement impacts have been documented;
         iii)		 The year-end close-out process, reconciliations, and financial data and account analysis
                procedures are supported by documentation, including evidence of effective management
                review and approval, and beginning balances in the following year are determined to be
                reliable and auditable; and
         iv)		 All intra-governmental activities and balances are reconciled on a timely basis, accurately
               reflected in the financial statements, and differences are resolved in a timely manner.
    b.		 Implement financial reporting policies and procedures that support process level internal controls
         to ensure that existing transactional and management review internal control activities are
         operating effectively; and
    c.		 Implement accounting and financial reporting processes including an integrated general ledger
         system that is FFMIA compliant.
2.		 MGMT:
    a.		 Improve communications with its general ledger service provider to ensure that general ledger
         activity is accounted for timely, completely and accurately;
    b.		 Consider changes to the financial accounting and reporting structure to ensure effective internal
         control including supervisory reviews in all financial reporting processes;
    c.		 Examine existing policies and procedures and consider updates and new policies to accommodate
         different operating environments such as the Working Capital Fund;
    d.		 Establish processes and internal controls to ensure compliance with the USSGL requirements at
         the transaction level; and
    e.		 Improve the accessibility of reliable and complete financial data for use by management and to
         support the annual audit.
3.		 NPPD:
    a.		 Design and implement internal controls that ensure effective monitoring and communication of
         financial policies and procedures throughout the NPPD organization;
    b.		 Examine key financial reporting processes for critical deficiencies in financial policies, establish
         procedures, and internal controls, and develop and implement corrective action plans, to ensure the
         accuracy and completeness of NPPD financial statements;



                                                      I.4
Independent Auditors’ Report
Exhibit I – Material Weaknesses

    c.		 Establish processes and internal controls to ensure compliance with the USSGL requirements at
         the transaction level;
    d.		 Consider changes to the financial reporting structure, or the service level agreement with ICE, to
         ensure effective control in all financial reporting processes at NPPD; and
    e.		 Continue to analyze alternatives, including evaluation of systems, to enable FFMIA compliance.
4.		 ICE:
    a.		 Emphasize and train employees on the critical aspects of key transactional and supervisory review
         controls including the precision of the review, the need for supporting documentation, and impact
         to the financial statements;
    b.		 Assess resource needs and assign sufficient staff to respond to audit inquiries with accurate and
         complete information in a timely manner;
    c.		 Continue to analyze alternatives, including evaluation of systems, to enable FFMIA compliance;
         and
    d.		 Establish processes and internal controls to ensure compliance with the USSGL requirements at
         the transaction level.
5.		 U.S. Secret Service evaluate the effectiveness of its review and understanding over the actuarial
     pension estimate, to ensure the appropriate review and recording of pension expense, gains, and losses.
6.		 The DHS OFM:
    a.		 Perform a review of its personnel structure in FY 2014, considering the turn-over in management
         and restructuring of responsibilities in FY 2013, to ensure that resources are committed to areas of
         greatest financial statement risk, and to improve the organization, facilitation, and controls over
         processes that involve multiple components; and
    b.		 Strengthen management review controls that involve analysis of component data to provide
         effective quality reviews of component data. Consider separating the gathering and consolidation
         of data, from the analysis function to improve the effectiveness of review controls.
    c.		 Implement procedures to ensure application of policies is consistently performed throughout the
         Department. For example, computation and reporting of minimum future lease disclosures.

I-B Information Technology Controls and Financial System Functionality (USCG, CBP, USCIS,
FEMA, ICE)

Background: During our FY 2013 assessment of IT general and
application controls, we noted that the DHS components made                                  2013    2012     2011
progress in the remediation of IT findings we reported in FY 2012.
We closed approximately 45 percent of our prior year IT findings.                 USCG
However, new findings were noted at all DHS components in FY                      CBP
2013.
                                                                            USCIS
We also considered the effects of financial system functionality when
testing internal controls and evaluating findings. Many key DHS             FEMA
financial systems were not compliant with Federal financial
management system requirements as defined by FFMIA and OMB                    ICE
Circular Number A-127, Financial Management Systems, as revised.
DHS financial system functionality limitations add substantially to the       See page I.1 for table explanation
Department’s challenges of addressing systemic internal control
weaknesses, and limited the Department’s ability to leverage IT systems to effectively and efficiently
process and report financial data.


                                                        I.5
Independent Auditors’ Report
Exhibit I – Material Weaknesses

As noted in the chart on the right, the IT findings in each of the component listed are “less severe” (as
defined in the Introduction to the Exhibits); however, the combination of IT findings from all components
is considered a material weakness. In FY 2013, and recent years, the components have made good progress
in remediating IT general control deficiencies, and in general, the severity of remaining deficiencies has
diminished. However, when IT general control deficiencies that continued to exist in FY 2013 are
combined with the risks of financial statement error caused by limitations in IT functionality (see below),
the over all IT risk to the Department is elevated.
Conditions: Our findings, which were a cross-representation of general IT control deficiencies identified
throughout the Department’s components and financial systems functionality, follow:
Related to IT General Controls:
1.		 Access Controls:
    •	 Policies and procedures for key financial applications had not been developed to identify elevated
        access at the application level.
    •	 Management of application, database, network, and remote user accounts was inadequate or
        inconsistent.
    •	 Safeguards over logical and physical access to sensitive facilities and resources were not always
        effective.
    •	 Generation, review, and analysis of system audit logs were not always adequate or consistent.
    •	 Access of authorized personnel to sensitive areas containing key financial systems was sometimes
        more than needed, and data center access controls were not properly enforced.
    •	 Transferred and/or terminated employees were not always timely removed from financial systems,
        and policies related to revocation of system access were not always implemented or finalized.
    •	 Some interconnection security agreements (ISA) were expired and not updated.
2.		 Configuration Management
    •	 Configuration management policies and procedures were not always documented.
    •	 Security patch management and configuration deficiencies were identified during the vulnerability
        assessment on the platforms supporting the key financial applications and general support systems.
    •	 Evidence to support authorized modifications to key financial systems was not always maintained.
    •	 Monitoring controls were not always implemented for key financial systems to ensure the
	
        completeness and integrity of records of implemented system changes.
	
    •	 Management of administrator access to move code within and between environments was
	
        sometimes inadequate or inconsistent.
	
3.		 Security Management:
    •	 Required security authorization activities and supporting artifacts for key financial systems were
        not always completed and documented.
    •	 Controls to monitor compliance with requirements for role-based training for personnel with
        significant information security responsibilities were not always consistently implemented, and
        documentation of individuals subject to role-based training requirements was sometimes
        incomplete.




                                                    I.6
Independent Auditors’ Report
Exhibit I – Material Weaknesses

    •	 Federal employees and contractors did not consistently adhere to DHS and component policies,
        guidance, and security awareness training concerning the protection of sensitive assets and
        information from unauthorized access or disclosure.
4.		 Contingency Planning:
    •	 Service continuity plans were not always tested, and an alternate processing site has not been
        established for high risk systems.
    •	 Backup policies and procedures were inconsistently documented.
    •	 Backup parameters were not always properly implemented or managed.
5.		 Segregation of Duties:
    •	 Implementation of segregation of duties for IT and financial management personnel with access to
        financial systems across several platforms was inadequate or incomplete.
Related to financial system functionality:
We noted many cases where financial system functionality was inhibiting DHS’ ability to implement and
maintain internal controls, notably IT application controls supporting financial data processing and
reporting. Financial system functionality limitations also contribute to other control deficiencies reported in
Exhibits I and II, and compliance findings presented in Exhibit III. We noted persistent and pervasive
financial system functionality conditions at all of the significant DHS components in the following general
areas:
    •	 At one component, IT systems have unique functionality issues due to numerous variables, most of
         which were not within the control of the component. Production versions of financial systems
         were outdated and did not provide the necessary core functional capabilities. The component had
         installed extensive workarounds, redundant and overlapping systems, and numerous manual
         reconciliation processes, as necessary to produce auditable financial statements. Some of these
         workarounds and systems were installed as the only means to validate actual data in the various
         general ledgers, and support the financial statements. In many cases, the IT systems were not
         designed to allow the component to install and use routine automated controls to assist with
         efficient, reliable, financial processing.
    •	 At another component, multiple financial IT systems continued to be impaired by functionality
         limitations which prevent implementation of effective security controls. These limitations, which
         principally impact audit logging controls intended to monitor logical access and configuration
         management activities, were being addressed through enterprise-wide solutions which were not
         fully implemented at the time of our audit procedures. Additionally, certain feeder systems were
         operating with outdated and unsupported system software components which exposed them to
         vulnerabilities that cannot be mitigated.
    •	 Several financial systems have limited capacity to process, store, and report financial and
         performance data to facilitate decision making, safeguarding and management of assets, and
         prepare financial statements that comply with GAAP.
    •	 One financial system lacked the controls necessary to prevent or detect and correct excessive
         drawback claims. Specifically, the programming logic for the system did not link drawback claims
         to imports at a detailed, line item level.
    •	 Technical configuration limitations, such as outdated systems that were no longer fully supported
         by the software vendors, impaired DHS’ ability to fully comply with policy in areas such as IT
         security controls, notably password management, audit logging, user profile changes, and the
         restricting of access for off-boarding employees and contractors.




                                                      I.7
Independent Auditors’ Report
Exhibit I – Material Weaknesses

    •	 System capability limitations prevent or restrict the use of applications controls to replace less
         reliable, more costly manual controls; or in some cases, required additional manual controls to
         compensate for IT security or control weaknesses.
    •	 Some IT subsidiary modules that could improve controls and reliability were not active due to
         various system design and integrity reasons.
    •	 Some IT system controls were not designed to prevent the receipt of goods and services in excess
         of available funding.
Cause/Effect: DHS management recognized the need to upgrade its financial systems. Until serious legacy
IT issues are addressed and updated IT solutions implemented, compensating controls and other complex
manual workarounds must support its IT environment and financial reporting. As a result, DHS’ difficulty
attesting to a strong control environment, to include effective general IT controls and reliance on key
financial systems, will likely continue.
The conditions supporting our findings collectively limit DHS’ ability to process, store, and report financial
data in a manner to ensure accuracy, confidentiality, integrity, and availability. Some of the weaknesses
may result in material errors in DHS’ financial data that were not detected in a timely manner through the
normal course of business. In addition, because of the presence of IT control and financial system
functionality weaknesses; there is added pressure on mitigating controls to operate effectively. Because
mitigating controls were often more manually focused, there is an increased risk of human error that could
materially affect the financial statements.
Recommendation: We recommend that the DHS Office of the Chief Financial Officer (OCFO) in
coordination with the Office of the Chief Information Officer (OCIO), continue the Financial Systems
Modernization initiative, and make necessary improvements to the Department’s financial management
systems and supporting IT security controls. Specific recommendations were provided in separate letters
provided to DHS management.

I-C Property, Plant, and Equipment (USCG, CBP)
Background: The Coast Guard maintained approximately 50
percent of all DHS general property, plant, and equipment (PP&E).                          2013     2012     2011
Many of the Coast Guard’s assets were constructed over a multi-year
period, have long useful lives, and undergo extensive routine                  USCG
servicing that may increase their value or extend their useful lives.
                                                                                CBP
In FY 2013, the Coast Guard completed several phases of a multi-
year remediation plan to address process and control deficiencies              MGMT         **        C
related to the PP&E process. However, certain remediation efforts
were not fully completed until late in FY 2013, and additional                  ICE         **               N/A
remediation activities are scheduled for FY 2014. Consequently,                 TSA          C        C
most of the conditions cited below have been repeated from our FY
2012 report.                                                                 ** See Comment I-A Financial Reporting
CBP continued to perform remediation to address deficiencies in the         See page I.1 for table explanation
timely recording of capitalized costs and in the classification of
PP&E between construction in progress (CIP) and “in-use.” As a
result, several of the conditions were repeated from our FY 2012 report. CBP’s deficiencies were mostly
concentrated in construction at its various facilities.
MGMT acquired a substantial amount of assets in recent years through the construction and development
of its headquarters campus and leasehold improvements. Control deficiencies affecting PP&E were
financial reporting in nature and have been grouped with conditions cited at Comment I-A, Financial
Reporting.



                                                       I.8
Independent Auditors’ Report
Exhibit I – Material Weaknesses

ICE made progress in remediation of PP&E control deficiencies in FY 2013. The conditions that remain
were related to financial reporting. See Comment I-A, Financial Reporting.
Conditions: We noted the following internal control weaknesses related to PP&E at Coast Guard, and
CBP:
1.		 USCG did not:
    •	 Fully implement existing policies and procedures for personal property and CIP balances. For
        example, Coast Guard did not:
        -    Implement sufficient internal controls and related processes to support interim PP&E balances
             and activity, including the identification and timely recording of leasehold improvements,
             asset impairments, and CIP activity;
        -	   Transfer completed assets from CIP to in-use assets in a timely manner;
        -    Adhere to established inventory policies and procedures. For example, those regarding asset
             identification, system mapping, and tagging processes, to clearly differentiate and accurately
             track personal property assets to the fixed assets system; and
        -    Sufficiently support all assumptions, underlying data, and adjustments associated with direct
             and indirect costs for CIP projects.
    •	 Fully implement policies, procedures, and effective controls to ensure the accuracy of all
        underlying data elements and assumptions used to record certain estimated personal and real
        property balances, including electronic, internal-use software, land, buildings and other structure
        assets, including leasehold improvements, particularly when applying Statement of Federal
        Financial Accounting Standard (SFFAS) No. 35, Estimating the Historical Cost of General
        Property, Plant, and Equipment to estimate PP&E balances.
    •	 Identify and evaluate all lease agreements to ensure that they were appropriately categorized as
        operating or capital, and properly reported in the financial statements and related disclosures.
    •	 Fully design and implement policies and procedures to support the completeness, accuracy, and
        existence of all data utilized (e.g., real property multi-use assets) in developing required financial
        statement disclosures, and related supplementary information, for stewardship PP&E.
2.		 CBP:
    •	 Did not consistently adhere to policies and procedures to properly account for asset purchases,
        construction, depreciation, or disposal of assets in a timely manner. For example, CBP did not:
        -	   Ensure all asset additions are recorded accurately and timely in the financial statements;
        -	   Reclassify certain assets from CIP to in-use assets in a timely manner; and
        -	   Record some asset disposals timely and in accordance with policy.
Cause/Effect: The Coast Guard has had difficulty establishing its opening PP&E balances and accounting
for leases, primarily because of poorly designed policies, procedures, and processes implemented more
than a decade ago, combined with ineffective internal controls, and IT system functionality difficulties. See
Comment I-B, Information Technology Controls and Financial System Functionality. The Coast Guard
was required to apply SFFAS No. 35 to estimate and present auditable PP&E balances. While applying
SFFAS No. 35, the Coast Guard used various assumptions to project balances that required procedures
outside the normal business processes, financial reporting controls, and presented unique documentation
challenges for the Coast Guard.
Personnel within CBP’s highly dispersed operations did not consistently adhere to established policies and
procedures for recording PP&E costs, and did not have sufficient oversight, including monitoring controls



                                                      I.9
Independent Auditors’ Report
Exhibit I – Material Weaknesses

over ongoing CIP projects, to ensure that all PP&E transactions were recorded timely and accurately in the
	
general ledger. 

Criteria: Presented in Index of Financial Reporting and Internal Control Criteria, after Exhibit III. 

Recommendations: We recommend that:
	
1.		 Coast Guard:
    a.   Continue with planned remediation efforts, and adhere to existing policies and procedures
         associated with PP&E balances in FY 2014. Specifically, continue to implement controls over the
         transfer of completed CIP assets to in-use, accurately recording leasehold improvements, asset
         impairments, and CIP activity;
    b.   Fully adhere to established inventory policies and procedures;
    c.   Establish new or improve existing policies, procedures, and related internal controls to sufficiently
         support all assumptions, and underlying data for estimated personal and real property balances,
         including electronic, internal-use software, land, buildings and other structure assets;
    d.   Establish new or improve existing processes to identify and evaluate lease agreements to ensure
         that they are appropriately classified as operating or capital, and are properly reported in the
         financial statements and related disclosures; and
    e.   Develop and implement procedures to support the completeness, accuracy, and existence of all
         data utilized (e.g., real property multi-use assets) in developing required financial statement
         disclosures, and related supplementary information, for stewardship PP&E.
2.		 CBP:
    a.		 Reinforce existing policies and procedures for recording asset additions, reclassifications, and
         retirements; and
    b.		 Continue to enhance supervisory review and monitoring controls to review PP&E transactions in a
         timely manner.


I-D Budgetary Accounting (USCG, FEMA, ICE, NPPD, MGMT)
Background: The Coast Guard, Federal Emergency Management
Agency (FEMA), and ICE continued to improve policies and                                    2013     2012     2011
procedures associated with budgetary accounting processes in FY
                                                                               USCG
2013; however, some control deficiencies reported in FY 2012 remain,
and new deficiencies were identified.                                         FEMA
NPPD had deficiencies in budgetary accounting and related revenue               ICE                            N/A
accounting. The root cause of the deficiencies noted were similar to
those noted at Comment I-A, Financial Reporting.                               NPPD                  N/A       N/A
MGMT was responsible for the operations and financial oversight of            MGMT                             N/A
several programs including the DHS Working Capital Fund. The
Working Capital Fund provided shared services to DHS agencies.                FLETC           C                N/A
Control deficiencies affecting budgetary accounting were similar to
                                                                               See page I.1 for table explanation
the deficiencies noted in the overall financial reporting process cited at
Comment I-A, Financial Reporting.
The Federal Law Enforcement Training Centers (FLETC) had made progress in correcting the budgetary
control deficiencies we reported in FY 2012.
Conditions: We noted the following internal control weaknesses related to budgetary accounting at Coast
Guard, FEMA, ICE, NPPD and MGMT:


                                                      I.10
Independent Auditors’ Report
Exhibit I – Material Weaknesses

1.		 Coast Guard:
    •	 Lacked adequate processes to ensure the timely de-obligation of undelivered orders and
	
        recordation of new obligations during the fiscal year-end.
	
    •	 Did not effectively complete management reviews over the monthly reconciliations of the SF-132,
        Apportionment and Reapportionment Schedule, to the SF-133, Report on Budget Execution and
        Budgetary Resources.
2.		 FEMA:
    •	 Does not have effective controls over obligations, timely deobligations, and payments, and could
        not readily provide all supporting documentation.
    •	 Did not properly review budgetary funding transactions recorded in the general ledger.
    •	 Did not effectively complete management reviews over the monthly reconciliations of the SF-132,
        Apportionment and Reapportionment Schedule, to the SF-133, Report on Budget Execution and
        Budgetary Resources.
3.		 ICE:
    •	 Controls were not operating effectively to ensure obligation and expense transactions were timely
        recorded in the general ledger.
    •	 Policies and procedures were not fully documented to ensure that budgetary subsidiary accounts
        were reconciled to the general ledger and adjustments, if needed, were recorded timely.
    •	 Lacks IT system controls to ensure expenditures were within budgetary limits, that also impact
        internal controls of other IT system users such as NPPD and MGMT.
4.		 NPPD:
    •	 Lacked processes to ensure that recoveries of prior year expired funds were recorded timely.
    •	 Lacked documented and effective policies and procedures to ensure that unfilled customer orders
        were timely adjusted when matching UDO balances were deobligated or adjusted.
    •	 Controls were not operating effectively over reconciliations of budgetary accounts, timely
	
        recording of obligations, and over periodic adjustments to obligations.
	
5.		 MGMT:
    •	 Had ineffective controls over budgetary accounting including timely recording of obligations,
        timely deobligations, and reconciliation of balances.
Cause/Effect: The Coast Guard’s decentralized structure enabled obligations to be made throughout the
country by various authorized personnel, contributed to the challenge of enforcing existing policies,
procedures, and internal controls surrounding budgetary accounting and had caused various control gaps in
the internal control environment. Additionally, financial system functionality issues prohibited the Coast
Guard from implementing and maintaining automated internal controls to supplement their existing manual
controls. For example, the Coast Guard relied on manual workarounds to identify undelivered orders since
the budgetary module of the financial system was not active. Also see Comment I-B, Information
Technology Controls and Financial System Functionality. Weak controls in budgetary accounting increase
the risk that the Coast Guard will misstate budgetary balances, and may lead to unintentional violation of
the Anti-deficiency Act by overspending its budget authority.
FEMA’s administrative functions were geographically separated from programmatic operations, which
present a challenge for consistent enforcement of policy. Certain offices within FEMA did not have
effective document maintenance policies and procedures, making the retrieval of certain supporting


                                                    I.11
Independent Auditors’ Report
Exhibit I – Material Weaknesses

documentation difficult. FEMA’s existing IT systems were not effective in facilitating a network of strong
internal controls over administrative functions that were highly decentralized. See Comment I-B,
Information Technology Controls and Financial System Functionality. We noted that for certain
undelivered order balances, significant effort was required to coordinate and identify the responsible
parties, to access certain files, locate files, or to provide information in a form that clearly supported the
balances reported in the financial statements. Without adequate documentation, FEMA was unable to
support the validity of obligation status. In addition, FEMA personnel have not fully adhered to the existing
procedures for the recording of funding transactions because of lack of oversight by management. As a
result, FEMA’s financial information submitted to DHS for financial statement purposes may contain
budgetary account errors. Currently, FEMA does not have effective monitoring controls to ensure that the
monthly review of the SF-132 to SF-133 reconciliation identifies and properly remediates all variances
within established timeframes. These deficiencies could cause the current status of FEMA funds to be
incorrectly reported.
ICE’s budget processes, including obligation and funds management, were significantly impacted by the
continuing resolutions and sequestration that occurred in FY 2013, making it difficult for ICE to ensure that
funding exists, and is maintained through the entire period of performance, before receipt of goods and
services. Without adequate funds management, ICE may unintentionally violate the Anti-deficiency Act by
overspending its budget authority. Also see Comment I-B, Information Technology Controls and Financial
System Functionality.
NPPD and MGMT use the same IT systems as ICE, and therefore similar IT systems functionality issues
also affect NPPD and MGMT. In addition, NPPD and MGMT have not fully implemented policies and
procedures over obligations and funds management processes.
Criteria: Presented in Index of Financial Reporting and Internal Control Criteria, after Exhibit III.
Recommendations: We recommend that:
1.		 Coast Guard:
    a.		 Adhere to existing policies and procedures related to processing obligation transactions and the
         periodic review and validation of undelivered orders. In particular, emphasize the importance of
         performing effective reviews of open obligations, obtaining proper approvals, and retaining
         supporting documentation;
    b.		 Continue with current remediation efforts to develop and implement policies, procedures, and
         internal controls over the monitoring of reimbursable agreements and unfilled customer orders to
         ensure activity, including close-out and de-obligation, is recorded timely and accurately;
    c.		 Implement sufficient policies and procedures for timely recording the appropriate budgetary
         entries upon receipt of goods, and prior to payment; and
    d.		 Develop and implement monitoring controls to ensure that management reviews of the monthly
         SF-132 to SF-133 reconciliations are completed timely and effectively.
2.		 FEMA:
    a.		 Enforce existing policies that require timely review and de-obligation of undelivered orders.
         Continue to improve procedures for storing and locating documentation supporting undelivered
         order information, including points of contact, so that supporting information is readily available
         for management review and audit purposes. Implement procedures to ensure that obligations
         recorded in the general ledger agreed to the approved obligation amounts;
    b.		 Implement improved review procedures for budgetary funding transactions recorded in the general
         ledger; and
    c.		 Develop and implement monitoring controls to ensure that management reviews of the monthly
         SF-132 to SF-133 reconciliations are completed timely and effectively.
3.		 ICE:

                                                     I.12
Independent Auditors’ Report
Exhibit I – Material Weaknesses

    a.		 Improve controls over the verification and validation of undelivered orders to identify outstanding
         obligations that need to be closed out and/or adjusted for financial statement presentation;
    b.		 Implement policies and procedures to ensure that financial managers work with field office
         personnel to perform a rigorous review of the open obligations and maintain appropriate
         documentation of these reviews;
    c.		 Improve the process of recording recoveries and upward adjustments of prior year obligations,
         including identification and adjustment for offsetting transactions; and
    d.		 Implement an effective process to match advances to obligations at the transaction level.
4.		 NPPD:
    a.		 Develop and implement processes to ensure that recoveries of prior year expired funds and
         adjustments to unfilled customer orders are recorded timely;
    b.		 Improve controls over the verification and validation of undelivered orders to identify outstanding
         obligations that need to be closed out and/or adjusted for financial statement presentation; and
    c.		 Improve controls over reconciliations of budgetary accounts, and accurate recording of
	
         apportionments and obligations, and over periodic adjustments to obligations.
	
5.		 MGMT:
    a.		 Develop and implement improved controls over budgetary accounting to ensure timely recording
         of apportionments and obligations, timely deobligations of invalid obligations, and reconciliation
         of balances.




                                                    I.13
Independent Auditors’ Report
Exhibit II – Significant Deficiencies

II-E Entity-Level Controls (Department-wide)
Background: Entity-level controls encompass the over-all control environment throughout the entity. This
includes the governance and management functions and the attitudes, awareness, and actions of those
charged with governance, and management concerning the entity's internal control and its importance in the
entity. Entity-level controls are often categorized as environmental controls, risk assessment, monitoring
and information and communications, as defined by the Committee of Sponsoring Organizations of the
Treadway Commission (COSO) (1992 version), and the Government Accountability Office (GAO). These
controls must be effective, to create and sustain an organizational structure that is conducive to reliable
financial reporting.
The Office of Management and Budget (OMB) Circular No. A-123, Management’s Responsibility for
Internal Control, (OMB Circular No. A-123) assessment is also designed to assist with management’s
evaluation of control effectiveness and the remediation of control deficiencies, in accordance with an OMB
approved plan.
The conditions below should be read in conjunction with Comment I-B, Information Technology Controls
and Financial System Functionality, which describes entity-level control weaknesses related to Department
and component IT systems, and Comment I-A, Financial Reporting.
Conditions and Recommendations:
During our audit we noted certain control deficiencies, and underlying causes that were similar and
pervasive throughout the Department. The resulting recommendations, to correct the deficiencies, are based
on improvements in management’s risk assessments, monitoring activities, and communications throughout
the Department and components; including – control categories beyond process-level controls.
Accordingly, the entity-level control deficiencies described below apply to the Department as a whole.
Risk Assessments: The Department and its components have not fully developed their risk assessment
processes. As a result, events and transactions that have a greater likelihood of error are not always
receiving an appropriate level of attention. Risk assessments should be improved at both the Department
level by OCFO, and individual components annually, and updated during the year as needed. Examples of
areas that should be addressed annually and updated periodically in the risk assessment are:
    •	 Needs for policy, guidance, new processes, or implementation of standardized processes around
        new or significant financial transactions or events (e.g., accounting and disclosure implications
        around major disaster events, or new activities such as the construction of the DHS headquarters
        facility).
    •	 Needs for technical and resource support to remediate severe control deficiencies and other areas
        where material financial statement errors could occur and not be identified and corrected timely.
    •	 Training needs assessments for personnel to match skills with roles and responsibilities, and
        identify gaps that could lead to financial statement error.
    •	 Smaller components that do not have the resources to fully support a separate financial
        management infrastructure should work with the Department to identify financial accounting and
        reporting risks, and close control gaps.
    •	 Identification of financial accounts and transactions that are susceptible to error due to weaknesses
        in IT general controls and IT systems functionality (e.g., limitations in budgetary subsidiary IT
        systems). See Comment I-B, Information Technology Controls and Financial System
        Functionality.




                                                     II.1
Independent Auditors’ Report
Exhibit II – Significant Deficiencies

Communications and Information: Communications between the Department and components should be
improved to ensure:
•	 Consistency in application of guidance and accounting policy (e.g., such as disclosures for future
   minimum lease payments in the financial statements, coordination of year-end close and recording top-
   side journal entries, and review of the effects of non-GAAP policies).
•	 Understanding of roles and responsibilities between components and shared services providers (e.g.,
   between ICE and NPPD and MGMT).
•	 Roles and responsibilities of program and field personnel that provide key financial information are
   fully defined and that those personnel understand and comply with policies.
Monitoring Controls: The Department and each component should design monitoring controls around its
annual risk assessment to ensure transactions with higher risk of error are adequately monitored.
Components with effective detective monitoring controls should look for opportunities to implement more
reliable controls earlier in the process to prevent errors at the transaction source. In addition, detective
controls intended to compensate or mitigate weak preventive or process-level controls (e.g., management
review controls of the financial statements), are not always designed at a level of precision to identify a
significant error. Consequently, errors or a combination of errors in the financial statements could go
undetected.
The Department’s control environment, including executive level support for strong internal controls,
continued progress in remediation of control deficiencies, and progress in resolving financial IT systems
weaknesses will be critical to sustaining auditable financial statements in the future. These conditions were
further evidenced through control deficiencies cited at Comment I-A, Financial Reporting.
Cause/Effect: Is described within the Conditions and Recommendations above.
Criteria: Presented in Index of Financial Reporting and Internal Control Criteria, after Exhibit III.

II-F Liabilities (USCG)
Background: The USCG made progress in correcting the control
deficiencies around liabilities reported in FY 2012.                                         2013     2012      2011

Conditions: We noted the following internal control weaknesses                 USCG
related to liabilities at USCG:
                                                                                 See page I.1 for table explanation
USCG:
    •	 Did not adhere to its policies and procedures adopted in FY 2012 to update, maintain, and review
        schedules tracking environmental liabilities where Coast Guard was not the primary responsible
        party (e.g., Formerly Used Defense Sites).
    •	 Process for validation of the prior year accounts payable estimates was not properly designed and
        implemented in FY 2013 as planned.
    •	 Controls over the calculation and recording of contingent legal liabilities did not operate
        effectively, resulting in errors in calculation of the payout rates for various claim categories, and
        one claim category was not accurately recorded.
Cause/Effect: In addition to the effects described in the conditions above:
The Coast Guard devoted considerable attention and resources to fulfilling its commitment to complete
remediation of PP&E balances and produce auditable financial statements in FY 2013, causing procedures
over some other financial statement accounts to be deferred or not performed in FY 2013.
Criteria: Presented in Index of Financial Reporting and Internal Control Criteria, after Exhibit III.




                                                      II.2
Independent Auditors’ Report
Exhibit II – Significant Deficiencies

Recommendation: We recommend that:
1.		 The Coast Guard complete a risk assessment at the beginning of FY 2014 to identify financial
     statement and control risk exposure in financial statement account balances. With the completion of
     PP&E remediation in FY 2013, the Coast Guard should reconsider resource needs, and direct
     appropriate management attention to address financial statement and control risks.

II-G Grants Management (FEMA only)
Background: FEMA was the primary grant-making component of
DHS, managing multiple Federal disaster and non-disaster grant                             2013     2012      2011
programs.                                                                    FEMA
Conditions: Although FEMA remediated the prior year site visit
                                                                               See page I.1 for table explanation
monitoring findings, the following previously reported internal control
weaknesses related to grants management remain in the current year.
FEMA:
    •	 Did not compile a complete list of grantees requiring single audits to fully comply with the Single
        Audit Act Amendments of 1996 (Single Audit Act) and related OMB Circular No. A-133, Audits of
        States, Local Governments, and Nonprofit Organizations (OMB Circular A-133). See Comment
        IV-K, Single Audit Act Amendments of 1996.
    •	 Did not issue Management Decision Letters timely for OMB Circular A-133 audit reports available
        in the Federal Audit Clearinghouse.
    •	 Did not maintain accurate and timely documentation related to reviews performed of grantees’
        OMB Circular A-133 audit reports.
    •	 Did not consistently follow-up with grantees who have failed to submit quarterly financial reports
        timely.
    •	 Did not consistently maintain documentation necessary to support grant-related activities.
    •	 Did not consistently and effectively reconcile grantee quarterly financial reports to FEMA systems.
    •	 Did not have a process in place to create and track comprehensive lists of FEMA grants that were
        eligible for close-out.
Cause/Effect: FEMA had not fully implemented policies and procedures over its grant program in order to
ensure compliance with the Single Audit Act and OMB Circular A-133. In addition, FEMA did not have a
grants IT system in place to efficiently and comprehensively track grants to help ensure that all
programmatic events were accurately and timely completed. Manual processes that were not always
effective were used to track grants that were eligible for close-out. See Comment I-B, Information
Technology Controls and Financial System Functionality. FEMA had not implemented effective
monitoring procedures over certain grant activities and the maintenance of related documentation. As a
result, misreported grantee expenses may not be detected, which may impact the fair presentation of
FEMA’s grant accrual balances, undelivered orders, and expenses. Further, the diversity of grant programs
and systems within FEMA caused difficulty in assembling a comprehensive status of grants eligible for
close-out, which could result in untimely closure of grants and an overstatement of undelivered orders.
Criteria: Presented in Index of Financial Reporting and Internal Control Criteria, after Exhibit III.
Recommendations: We recommend that FEMA:
1.		 Complete the implementation of policies and procedures to ensure full compliance with the Single
     Audit Act and the related OMB Circular No. A-133 related to receipt and review of grantees’ single
     audit reports;


                                                     II.3
Independent Auditors’ Report
Exhibit II – Significant Deficiencies

2.		 Implement monitoring procedures over obtaining, timely reviewing and reconciling required quarterly
     grantee reports, and maintaining related documentation;
3.		 Develop and implement procedures to create and track comprehensive lists of FEMA grants that are
     eligible for close-out; and
4.		 Implement a continuous quality assurance and grants monitoring process to include review of
     corrective actions resulting from implementation of the recommendations in 1 – 3 above.

II-H Custodial Revenue and Drawback (CBP Only)

Background: CBP collected approximately $36.6 billion in annual
                                                                                           2013     2012      2011
import duties, taxes, and fees on merchandise arriving in the United
States from foreign countries (identified below as the Entry Process).         CBP
Receipts of import duties and related refunds were presented in the
statement of custodial activity in the DHS financial statements.               See page I.1 for table explanation

Drawback is a remittance, in whole or in part, of duties, taxes, or fees previously paid by an importer.
Drawback typically occurs when the imported goods on which duties, taxes, or fees have been previously
paid, are subsequently exported from the United States or destroyed prior to entering the commerce of the
United States.
Our findings over the Entry Process include conditions identified in In-bond, Bonded Warehouse and
Foreign Trade Zones. In-bond entries occur when merchandise is transported through one port; however,
the merchandise does not officially enter U.S. commerce until it reaches the intended port of destination.
Bonded Warehouses (BW) are facilities, under the joint supervision of CBP and the Bonded Warehouse
Proprietor, used to store merchandise that has not made entry into the United States commerce. Foreign
Trade Zones (FTZ) are secured areas under CBP supervision that are used to manufacture goods that are
considered outside of the United States commerce for duty collection.
The conditions cited below have existed for several years. Management has stated that the timeframe for
remediation of these conditions is dependent on funding for IT system upgrades and new system
implementation.
In September of FY 2012, CBP deployed the In-Bond Compliance Module, which was intended to create a
more effective in-bond monitoring system. However, during the FY 2013 audit, we identified deficiencies
in the design of new controls, limitations in the functionality of the new module, and inconsistencies in the
ports’ implementation of new processes. These deficiencies continued to limit CBP’s ability to monitor the
in-bond process, both at the Headquarters and port levels.
Conditions: We noted the following internal control weaknesses related to custodial activities at CBP:
Related to Drawback:
    •	 CBP’s current entry/collections system lacked the controls necessary to prevent, or detect and
        correct excessive drawback claims. The programming logic did not link drawback claims to
        imports at a detailed level. In addition, the system did not have the capability to compare, verify,
        and track essential information on drawback claims to the related underlying consumption entries
        and export documentation upon which the drawback claim is based. Further, the system had not
        been configured to restrict drawback claims to 99 percent of each entry summary.
    •	 Drawback review policies did not require drawback specialists to review all, or a statistically valid
        sample, of prior drawback claims against a selected import entry to determine whether, in the
        aggregate, an excessive amount was claimed against import entries.
    •	 Documentation retention periods were not appropriate to ensure that support for drawback
        transactions were maintained for the full claim time-period.



                                                     II.4
Independent Auditors’ Report
Exhibit II – Significant Deficiencies

Related to the Entry Process:
    •	 During the audit period, CBP was unable to determine the status of the in-bond shipments and
        lacked policies and procedures for monitoring the results of in-bond audits and review of overdue
        in-bonds. Specifically, the system for tracking compliance exams and audits lacked sufficient
        reporting capability to support the in-bond compliance function at the port level. Port personnel did
        not have sufficient training or a clear understanding of the new compliance module which resulted
        in inconsistent implementation at the ports. CBP did not formally analyze the rate and types of
        violations found, to determine the effectiveness of the in-bond program, and did not identify a
        projected total amount of uncollected duties and fees on in-bond merchandise that has physically
        entered U.S. commerce without formal entry to ensure there was not a potentially significant loss
        of revenue. In addition, CBP did not have sufficient monitoring controls in place to evaluate the
        sufficiency of bonds.
    •	 CBP headquarters had developed national databases which contain an inventory of all BWs and
        FTZs; however, these databases were not designed to document the assessed risk of each BW or
        FTZ, scheduled compliance review, or the results of compliance reviews. CBP was unable to
        verify the results of all compliance reviews in order to determine overall program effectiveness. In
        addition, we noted deficiencies in the operating effectiveness of monitoring controls at the port
        level.
Cause/Effect: IT system functionality and outdated IT systems contribute to the weaknesses identified
above. See Comment I-B, Information Technology Controls and Financial System Functionality. For
example, CBP could not perform a comprehensive analysis to determine the overall compliance rate of the
in-bond program. For drawback, much of the process is manual until IT system functionality improvements
are made, placing an added burden on limited resources.
The length of the drawback claim lifecycle often extends beyond the documentation retention period, which
is set by statute.
The inability to effectively and fully monitor the in-bond process and to verify the arrival of in-bond
merchandise at the ports could lead to loss of revenue due to uncollected duties and fees on in-bond
merchandise that has physically entered U.S. commerce without formal entry.
The current entry/collection system is unable to provide management with clear and actionable information
related to bond sufficiency. Additionally, port personnel do not consistently follow policies and procedures
related to the evaluation of bond sufficiency.
CBP did not have the ability to perform a complete analysis over the effectiveness of the BW and FTZ
programs. CBP headquarters cannot effectively monitor the BW and FTZ programs if it cannot identify a
complete population of all BWs and FTZs.
Criteria: Presented in Index of Financial Reporting and Internal Control Criteria, after Exhibit III.
Recommendations: We recommend that CBP:
1.		 Related to Drawback:
    a.		 Continue to pursue compensating controls and measures that may ultimately identify the potential
         revenue loss exposure to CBP. These compensating controls over drawback claims may lead to the
         ability to compare, verify, and track essential information on drawback claims to the related
         underlying consumption entries and export documentation for which the drawback claim is based,
         and identify duplicate or excessive drawback claims;
    b.		 Develop and implement automated controls, where feasible, to prevent overpayment of a 

         drawback claim; and
	
    c.		 Continue to analyze current policies and procedures performed at the Drawback Centers.
	
         Determine the benefit of current procedures and revise as necessary.
	



                                                     II.5
Independent Auditors’ Report
Exhibit II – Significant Deficiencies

2.	 Related to the Entry Process:
    a.		 Develop policies and procedures, and provide training to port-level personnel related to the In-
         Bond Compliance Module;
    b.		 Address limitations in reporting capabilities within the In-Bond Compliance Module;
    c.		 Provide oversight and assistance at the headquarters-level to ensure that port personnel are
         following procedures, and monitor and review the in-bond process to ensure a high in-bond
         compliance rate;
    d.		 Develop procedures to evaluate the completeness of the compliance review results submitted to
         CBP headquarters;
    e.		 Continue to strengthen monitoring efforts related to bond sufficiency; and
    f.		 Increase monitoring over the BW and FTZ compliance review program by developing a method to
         determine the program’s overall effectiveness.




                                                    II.6
Independent Auditors’ Report
Exhibit III – Compliance and Other Matters


All of the compliance and other matters described below are repeat conditions from FY 2012.

III-I Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
DHS’ implementation of OMB Circular No. A-123 facilitates compliance with the FMFIA. The DHS Financial
Accountability Act of 2004 requires DHS to obtain an annual audit opinion of internal control over financial
reporting. DHS has implemented a Multi-Year Plan to achieve full assurance on internal controls. However, in
some instances, DHS does not perform tests of design or tests of operating effectiveness until the fiscal year
after the process area under remediation is corrected instead of during the fiscal year remediation occurs. The
DHS Secretary’s Assurance Statement dated December 11, 2013, as presented in Management’s Discussion and
Analysis of the Department’s 2013 Agency Financial Report (AFR), acknowledges the existence of material
weaknesses, and therefore provided qualified assurance that internal control over financial reporting was
operating effectively as of September 30, 2013. Management’s findings were similar to the control deficiencies
we have described in Exhibits I and II.
While we noted the Department had taken positive steps toward full compliance with FMFIA, OMB Circular
No. A-123, and the DHS Financial Accountability Act of 2004, the Department had not fully established
effective systems, processes, policies, and procedures to ensure and test that internal controls are operating
effectively throughout the Department.
Recommendation: We recommend that the Department continue its corrective actions to address internal control
deficiencies, in order to ensure full compliance with FMFIA and its OMB Circular No. A-123 approved plan in
FY 2014.

III-J Federal Financial Management Improvement Act of 1996 (FFMIA)
FFMIA Section 803(a) requires that agency Federal financial management systems comply with (1) applicable
Federal accounting standards; (2) Federal financial management system requirements; and (3) the United States
Government Standard General Ledger (USSGL) at the transaction level. FFMIA emphasizes the need for
agencies to have systems that can generate timely, reliable, and useful information with which to make
informed decisions to ensure ongoing accountability.
While we noted that the Department overall has taken positive steps toward full compliance with FFMIA, the
Coast Guard, U.S. Customs and Border Protection, FEMA, U.S. Immigration and Customs Enforcement, U.S.
Citizenship and Immigration Services, U.S. Secret Service, and Transportation Security Administration did not
fully comply with at least one of the requirements of FFMIA. The reasons for noncompliance are reported in
Exhibits I and II. The Secretary of DHS has stated in the Secretary’s Assurance Statement dated December 11,
2013, that the Department’s financial management systems do not substantially conform to government wide
requirements mandated by FFMIA. The Department’s remedial actions and related timeframes are also
presented in the FY 2013 AFR.
An element within FFMIA, Federal system requirements is ensuring security over financial management
information. This element is addressed further in the Federal Information Security Management Act of
2002 (FISMA), which was enacted as part of the E-Government Act of 2002. FISMA requires the head of
each agency to be responsible for (1) providing information security protections commensurate with the
risk and magnitude of the harm resulting from unauthorized access, use, disclosure, disruption,
modification, or destruction of (i) information collected or maintained and (ii) information systems used or
operated; (2) complying with the requirements of the Act and related policies, procedures, standards, and
guidelines, including (i) information security standards under the United States Code, Title 40, Section
11331, and (ii) information security standards and guidelines for national security systems; and (3) ensuring
that information security management processes are integrated with agency strategic and operational
planning processes.




                                                    III.1
Independent Auditors’ Report
Exhibit III – Compliance and Other Matters

We also noted weaknesses in financial systems security, reported by us in Comment I-B, Information
Technology Controls and Financial System Functionality, which impact the Department’s ability to fully
comply with FISMA.
Recommendation: We recommend that DHS improve its financial management systems to ensure
compliance with the FFMIA, and implement the recommendations provided in Exhibits I and II in FY
2014.

III-K Single Audit Act Amendments of 1996 (Single Audit)
FEMA is the only DHS component that has a significant grant making operation. The Single Audit Act
Amendments of 1996, as implemented by OMB Circular No. A-133, Audits of States, Local Governments, and
Non-Profit Organizations, requires agencies awarding grants to monitor their grantees, ensure they receive
grantee reports timely, and follow-up on Single Audit findings to ensure that grantees take appropriate and
timely action. Although FEMA had implemented a system to monitor grantees and their audit findings, FEMA
did not fully comply with provisions in OMB Circular No. A-133 in FY 2013. We noted that FEMA’s
monitoring efforts were inconsistent, and FEMA did not obtain and review all grantee Single Audit reports in a
timely manner.
Recommendation: We recommend that FEMA implement the recommendations in Comment II-G, Grants
Management.

III-L Anti-deficiency Act (ADA)
Various management reviews and OIG investigations are on-going within the Department and its
components that may identify ADA violations, as follows:
•	 Coast Guard is currently in the process of reporting two separate ADA violations; one relating to funds
    that may have been used in advance of an approved apportionment from OMB, and one relating to the
    improper execution of the obligation and disbursement of funds for the lease of passenger vehicles.
    Coast Guard submitted notification packages, related to these two violations, to the President in FY
    2013. Coast Guard is also in the process of investigating a third potential violation, related to partial
    termination of a firm fixed price contract modification funded through an appropriation other than the
    original appropriation used to obligate the delivery order.
•	 In response to a FY 2007 U.S. Government Accountability Office report, the DHS OIG conducted a
    review of National Protection and Programs Directorate’s (NPPD) legacy organization for FY 2006
    and found that it violated the ADA with respect to the use of shared services. NPPD has developed the
    package to notify the President, Congress, and GAO of the violation and it is currently in clearance.
•	 The Management Directorate completed its investigation of whether rental charges at the Office of the
    Federal Coordinator for Gulf Coast Rebuilding (OFCGCR) incurred in FY 2009 were not properly
    committed or obligated and determined that the OFCGCR committed a violation in FY 2009 and
    submitted the notification package to the President in FY 2013.
•	 Intelligence and Analysis (I&A) is investigating a potential ADA violation due to a difference in
    calculation of apportionments while under continuing resolution in FY 2012.
Recommendation: We recommend that the Department and the other components complete the internal
reviews currently planned or being performed, and properly report the results in compliance with the ADA,
where necessary.




                                                     III.2
Independent Auditors’ Report
Index of Financial Reporting and Internal Control Criteria
(Listed Alphabetically by Criteria Source)

 Criteria                                       Reference                                       Report Exhibit

 Automated Targeting System (ATS-N)                                                             II-H
 Version 4.41 In-bond Compliance
 Bonded Warehouse Manual for Customs and
 Border Protection Officers and Bonded
                                                                                                II-H
 Warehouse Proprietors (HB 3500-11, January
 2012)
 CBP Directive 3510-004, Monetary
                                                Introduction, Activity 1.a                      II-H
 Guidelines for Setting Bond Amounts
 CBP Directive 3510-005, Bond Sufficiency       Paragraph 2                                     II-H
 CBP Directive 5320-028D, Commitment,
 Obligation, Expenditure, and Payment           Section 7.5.1                                   I-C
 Procedures for Goods and Services
                                                §18.2, §18.6, §18.8, §19.4, §111.23, §111.25,
 Code of Federal Regulations, Title 19          §113.13, §146.3, § 163.4, §191.15, §191.38,     II-H
                                                §191.51
 Code of Federal Regulations, Title 31          §205.33                                         II-G
 Compliance Review Handbook for Bonded
                                                Section A, Part 2-4                             II-H
 Warehouses (HB 3500-09, December 2007)
 Compliance Review Handbook for Foreign
                                                                                                II-H
 Trade Zones (HB 3500-10, July 2008)
                                                - Analysis of Leases
                                                - Component Level Financial Statements and
                                                  Disclosures
                                                - Documentation Maintenance
                                                - Non-GAAP Requirements                         I-A
                                                - Obligation Balance Analysis
 DHS Component Requirements Guide for
                                                - Property, Plant & Equipment (PP&E)
 Financial Reporting, Version 6.0, February
                                                  Reporting
 2013
                                                - SF-132 to SF-133 Reconciliation
                                                - Analysis of Leases
                                                - Property, Plant & Equipment (PP&E)            I-C
                                                  Reporting
                                                - Obligation Balance Analysis
                                                                                                I-D
                                                - SF-132 to SF-133 Reconciliation
 DHS Financial Accountability Act,
                                                Section 4                                       I-A
 October 16, 2004
 Federal Accounting Standards Advisory Board
 (FASAB) Interpretation of Federal Financial
                                                Paragraphs 7, 8                                 I-A
 Accounting Standards No. 7, Items Held for
 Remanufacture
                                                § 4.8 Government Contract Files
 Federal Acquisition Regulation (FAR)           § 4.801 General                                 I-D
                                                § 4.802 Contract Files
 Federal Financial Management Improvement
                                                Section 803                                     I-A, I-C
 Act of 1996
 Federal Financial Management System
                                                - General Ledger Management Function
 Requirements, Core Financial System
                                                - General Ledger Account Definition Process     I-A
 Requirements (OFFM No. 0106),
                                                - Mandatory Requirements
 January 2006
 Federal Managers’ Financial Integrity Act of
                                                Section 2                                       I-A, I-C, I-D, II-H
 1982
 FEMA Budget Procedures Memorandum 10­          Section 4
                                                                                                I-D
 02, Version 3.2, January 2013                  Subsections B.2, C, D, E, F
 FEMA OCFO Standard Operating
 Procedures For SF-132/133 Reconciliation       VI. Responsibilities                            I-D
 Process, June 2013 V4



                                                   Criteria.1
Independent Auditors’ Report
Index of Financial Reporting and Internal Control Criteria
(Listed Alphabetically by Criteria Source)

 Criteria                                        Reference                                      Report Exhibit

 Financial Resource Management Manual            Section 7.9
 (FRMM COMDTINST M7100.3E),                      Section 10.2                                   I-A, I-C
 September 2013                                  Section 10.3
 FY 2011 Financial Management Codes,
                                                 Chapter 4, BOC 2589                            I-D
 January 27, 2011
 GAO FINANCIAL MANAGEMENT FFMIA
 Implementation Critical for Federal             Page 1, Paragraph 2                            I-A, I-C
 Accountability (GAO-02-29)
 GAO Framework for Federal Financial
 Management System Checklist Systems
 Reviewed Under the Federal Financial            Requirements Checklist Item Number 39          I-A
 Management Improvement Act of 1996
 (AIMD-98-21.2.1)
                                                 Control Activities                             I-A, I-D, II-G
                                                 Examples of Control Activities (Accurate and
                                                                                                I-A, I-D, II-G
                                                 Timely Recording of Transactions and Events)
                                                 Examples of Control Activities (Appropriate
                                                 Documentation of Transaction and Internal      I-A, I-D, II-G
 GAO’s Standards for Internal Control in the     Control)
 Federal Government                              Examples of Control Activities (Proper
                                                                                                I-D
                                                 Execution of Transactions and Events)
                                                 Monitoring                                     II-E
                                                 Presentation of the Standards                  I-A
                                                 Risk Assessment                                II-E
 ICE OFM Standard Operating Procedures for
 Statement of Differences T0051, v1.1, January   Section (J.5)                                  I-A
 2013
 OMB Bulletin No. 07-04, Audit Requirements
                                                 Compliance with FFMIA (footnote 16)            I-A
 for Federal Financial Statements
                                                 Section 20.3, 20.5
 OMB Circular No. A-11, Preparation,             Appendix B                                     I-A, I-D
 Submission, and Execution of the Budget, July   Appendix F
 2013                                            Section 130.9
                                                                                                I-D
                                                 Appendix G
                                                 1. Purpose                                     I-A
                                                 3. Policy                                      I-C, II-H
                                                                                                I-A, I-C, I-D,
                                                 I. Introduction
                                                                                                II-E, II-H
 OMB Circular No. A-123, Management’s
 Responsibility for Internal Control, Revised    II. Standards                                  I-A, I-D

                                                 III. Integrated Internal Control Framework     I-D
                                                 IV. Assessing Internal Control                 II-H
                                                 Appendix A, Section I. Introduction            I-C
                                                 Section 5
 OMB Circular No. A-127, Financial
                                                 Section 6 (subpart K)                          I-A, I-C
 Management Systems, Revised
                                                 Section 8 (subpart C)
 OMB Circular No. A-133, Revised to show
 changes published in the Federal Register
 June 27, 2003 and June 26, 2007                 Subparts B, D                                  II-G
  Audits of States, Local Governments, and
 Non-Profit Organizations



                                                    Criteria.2
Independent Auditors’ Report
Index of Financial Reporting and Internal Control Criteria
(Listed Alphabetically by Criteria Source)

 Criteria                                        Reference                                       Report Exhibit

 OMB Circular No. A-136, Financial
                                                 Section V.2 and V.3                             I-A
 Reporting Requirements, Revised
 Personal Property Handbook, HB 5200-13B         Chapter 8                                       I-C
 Single Audit Act Amendments of 1996             §7502                                           II-G
 Statement of Federal Financial Accounting
 Standards (SFFAS) No. 1, Accounting for         Paragraphs 12, 13, 39, 77                       I-A
 Selected Assets and Liabilities
 Statement of Federal Financial Accounting       Paragraphs 17, 18, 26, 34, 35, 39, 40           I-A
 Standards (SFFAS) No. 6, Accounting for
 Property, Plant, and Equipment                  Paragraphs 17, 18, 26, 34, 35, 38, 39, 40, 77   I-C
 Statement of Federal Financial Accounting
 Standards (SFFAS) No. 7, Accounting for         Paragraph 36                                    I-A
 Revenue and Other Financing Sources and
 Concepts for Reconciling Budgetary and          Paragraph 78                                    I-A, I-D
 Financial Accounting
 Statement of Federal Financial Accounting       Paragraphs, 15, 16                              I-A
 Standards (SFFAS) No. 10, Accounting For
 Internal Use Software                           Paragraphs, 16, 18, 20                          I-A, I-C

 Statement of Federal Financial Accounting
 Standards (SFFAS) No. 14, Amendments to         Paragraph 1                                     I-C
 Deferred Maintenance Reporting
 Statement of Federal Financial Accounting
 Standards (SFFAS) No. 23, Eliminating the       Paragraph 12                                    I-A, I-C
 Category National Defense PPE
 Statement of Federal Financial Accounting
                                                 Summary paragraph
 Standards (SFFAS) No. 29, Heritage Assets                                                       I-C
                                                 Paragraph 26
 and Stewardship Land
 Statement of Federal Financial Accounting
 Standards (SFFAS) No. 35, Estimating the
                                                 SFFAS 6 - Paragraph 40
 Historical Cost of General Property, Plant,
                                                 SFFAS 23 - Paragraph 16                         I-A, I-C
 and Equipment: Amending Statements of
 Federal Financial Accounting Standards 6
 and 23
 Treasury Financial Manual, Volume I,
                                                 Section 5, Subsection B                         I-A
 Bulletin 2011-06
                                                 -   Part 2, Chapter 4700, Section 4706.20
                                                 -   Part 2, Chapter 4700, Appendix 10
                                                 -   Part 2, Chapter 5100, Appendix 2
 Treasury Financial Manual, Volume I                                                             I-A
                                                 -   Fund Balance with Treasury Reconciliation
                                                     Procedures: A Supplement to I TFM 2-
                                                     5100, Section IV
 United States Coast Guard Procedures for
                                                 Section 1.3
 Physical Inventory and Year End Certification                                                   I-A, I-C
                                                 Section 5.9 through 5.17
 of Capitalized Personal Property
                                                 §1501                                           I-A
 US Code Title 31, Chapter 15
                                                 §1501, §1554                                    I-D
 US Customs Service (USCS), Records
                                                 Page 2, Paragraph 1                             II-H
 Control, CIS HB 2100-05A
 US Government Standard General Ledger
 Chart of Accounts, Treasury Financial           Part 1, Section 1                               I-A
 Manual, 2013 Reporting Supplement



                                                     Criteria.3
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix A 
   Report Distribution  
    
   Department of Homeland Security      
    
   Acting Secretary  
   Deputy Secretary 
   Chief of Staff    
   Deputy Chief of Staff 
   General Counsel 
   Executive Secretary 
   Director, GAO/OIG Liaison Office 
   Assistant Secretary for Office of Policy 
   Assistant Secretary for Office of Public Affairs 
   Assistant Secretary for Office of Legislative Affairs 
   Under Secretary for Management 
   Chief Financial Officer 
   Chief Information Officer 
   Chief Information Security Officer 
   Acting Chief Privacy Officer 
    
   Office of Management and Budget    
    
   Chief, Homeland Security Branch   
   DHS OIG Budget Examiner 
    
   Congress    
    
   Congressional Oversight and Appropriations Committees, as appropriate 




www.oig.dhs.gov                              4                              OIG-14-18
	
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
